<html>
<title> - TAKING ON WATER: THE NATIONAL PARK SERVICE'S STALLED RULEMAKING EFFORT ON PERSONAL WATERCRAFT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
TAKING ON WATER: THE NATIONAL PARK SERVICE'S STALLED RULEMAKING EFFORT 
                         ON PERSONAL WATERCRAFT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON REGULATORY AFFAIRS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2006

                               __________

                           Serial No. 109-134

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-092                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCMIDT, Ohio                        (Independent)
------ ------

                      David Marin, Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

                   Subcommittee on Regulatory Affairs

                 CANDICE S. MILLER, Michigan, Chairman
GINNY BROWN-WAITE, Florida           STEPHEN F. LYNCH, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
LYNN A. WESTMORELAND, Georgia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                       Ed Schrock, Staff Director
                Erik Glavich, Professional Staff Member
                         Benjamin Chance, Clerk
            Krista Boyd, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 15, 2006...................................     1
Statement of:
    Baughman, Laura, president, the Trade Partnership............    36
    Garcia, Fernando, director of public and regulatory affairs, 
      Bombardier Recreational Products...........................    24
    Hamer, John, owner, Motorsports of Miami.....................    69
    Schneebeck, Carl, public lands campaign director, Bluewater 
      Network....................................................    80
    Taylor-Goodrich, Karen, Associate Director for Visitor and 
      Resource Protection, National Park Service, Department of 
      the Interior, accompanied by Jerry Case, Regulations Policy 
      Program Manager............................................    16
Letters, statements, etc., submitted for the record by:
    Akin, Hon. W. Todd, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    11
    Baughman, Laura, president, the Trade Partnership, prepared 
      statement of...............................................    39
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, prepared statement of.......................    99
    Garcia, Fernando, director of public and regulatory affairs, 
      Bombardier Recreational Products, prepared statement of....    27
    Hamer, John, owner, Motorsports of Miami, prepared statement 
      of.........................................................    71
    Miller, Hon. Candice S., a Representative in Congress from 
      the State of Michigan, prepared statement of...............     3
    Schneebeck, Carl, public lands campaign director, Bluewater 
      Network, prepared statement of.............................    83
    Taylor-Goodrich, Karen, Associate Director for Visitor and 
      Resource Protection, National Park Service, Department of 
      the Interior, prepared statement of........................    19


TAKING ON WATER: THE NATIONAL PARK SERVICE'S STALLED RULEMAKING EFFORT 
                         ON PERSONAL WATERCRAFT

                              ----------                              


                       WEDNESDAY, MARCH 15, 2006

                  House of Representatives,
                Subcommittee on Regulatory Affairs,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2247, Rayburn House Office Building, Hon. Candice S. 
Miller (chairman of the subcommittee) presiding.
    Present: Representatives Miller, Cannon and Lynch.
    Also present: Representative Akin.
    Staff present: Ed Schrock, staff director; Erik Glavich and 
Joe Santiago, professional staff members; Benjamin Chance, 
clerk; Krista Boyd, minority counsel; and Jean Gosa, minority 
assistant clerk.
    Mrs. Miller. Call the meeting to order. Good morning, 
everyone. Appreciate you all coming. I certainly want to 
welcome everyone that's in attendance today to our hearing on 
the National Park Service's rulemaking effort on personal 
watercraft. Sometimes it seems that the Government sort of 
moves along at its own pace. I think we've all noticed that. 
Many times, certainly, a calculated approach is warranted, but 
too often governmental agencies seem to work at a glacial pace.
    The National Park Service has been working on a rulemaking 
effort to allow personal watercraft such as jet-skis or Sea-
Doos, known by the acronym PWC--and I come from a boating 
background, I still call them jet-skis or what have you; though 
I still call copy machines Xerox machines--for about 6 years, 
and during this time many self-imposed deadlines have come and 
gone, and I'm concerned that the completion of this effort has 
not been a priority as it should be, I think, for the Service. 
The delays have resulted in unwarranted bans of PWCs in 
national parks, which have had a detrimental impact on small 
businesses and individuals that rely on sales, rentals and 
services for their livelihood.
    In March 2000, the Park Service issued a rule banning 
personal watercraft from national parks beginning in 2002. The 
rule identified 21 parks which may allow PWCs, but only after 
completing appropriate procedures to ensure that PWC use is 
appropriate. The Bluewater Network and its parent company, 
Earth Island Institute, filed suit against the Interior 
Department and the Park Service challenging the provision of 
the rule that allowed 10 of the identified national parks to 
allow the use of PWCs without having to go through a special 
rulemaking with a public comment period and an environmental 
assessment as well. As part of a settlement agreement, the Park 
Service required all parks to complete a special rulemaking and 
environmental assessment before allowing PWCs to be used, and 
extended the deadline for completing the rulemaking before PWCs 
would be banned.
    Though people may question the appropriateness of the March 
2000 rule or even the settlement agreement which required all 
parks to complete a special rulemaking before allowing personal 
watercraft, my principal concern is the reasons behind the 
seemingly constant delays experienced by the Park Service in 
completing this rulemaking effort. Fifteen of the 21 parks 
affected by the Service-wide rule have decided to allow PWCs 
and have proceeded with a rulemaking. Though seven were not 
affected by the settlement agreement, the Park Service not only 
failed to complete a rulemaking for any of these parks before 
their self-imposed deadline, but only one park issued an 
environmental assessment before the ban took effect. For the 
seven parks with extended deadlines, only one park issued an 
environmental assessment before the deadline, and no parks 
issued a proposed rule before PWCs were banned.
    It is imperative that governmental agencies be responsive 
in enacting appropriate policy, and I'm concerned that the Park 
Service has allowed this rulemaking process to languish for too 
long. All 15 environmental assessments conducted by the Park 
Service have found that personal watercraft do not cause harm 
to the environment to the extent that a ban is warranted. For 
the 5 parks that have not issued final rules, an average of 
nearly 30 months has passed since an environmental assessment 
was issued.
    The Service needs to make completion of the rulemaking 
process a priority for them because their failures have a 
significant impact on the public. The Personal Watercraft 
Industry Association estimates a ban on PWCs by the Park 
Service has cost the industry $144 million per year and 3,300 
direct or indirect jobs between 2001 and 2004. One of our 
witnesses Laura Baughman will present a study discussing the 
economic impact of the bans that are now into their 4th year.
    The debate surrounding personal watercraft is not about 
whether they harm the environment. The issue we're here to 
discuss today is about fairness for those who use PWCs 
responsibly and about the Park Service's failure to finalize 
the PWC rules.
    I want to thank each of the witnesses certainly for 
agreeing to be here today, and I trust before this hearing is 
over the Park Service will be able to give us a time certain 
for when the rulemaking process for affected parks will be 
complete. And with that I recognize the distinguished ranking 
member of the subcommittee Mr. Lynch.
    [The prepared statement of Hon. Candice S. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T7092.001
    
    [GRAPHIC] [TIFF OMITTED] T7092.002
    
    [GRAPHIC] [TIFF OMITTED] T7092.003
    
    Mr. Lynch. Thank you, Chairman Miller. Good morning. I 
appreciate the members of the panel coming forward to help us 
work on this issue.
    The mission of the National Park Service is expressly to 
preserve, unimpair the natural and cultural resources and 
values of the National Park System for the enjoyment, education 
and inspiration of this and future generations. I'm a great fan 
of former President Theodore Roosevelt, and I have followed his 
life's story with great interest, and I believe that he was a 
man with tremendous vision, and the reason that we have such a 
wonderful National Park System is in large part due to his 
great work. He had a wonderful vision and appreciation of the 
beauty and the integrity of these areas that we have preserved.
    The laws that established the National Park Service are 
fairly express in their intent. First of all, they are to 
conserve the scenery and the natural and historic objects and 
the wildlife therein, and to provide for the enjoyment of the 
same in such manner and by such means as will leave them 
unimpaired for the enjoyment of future generations. It also 
goes on to say that the Park Service itself in its mission 
shall be--the protection, management and administration of 
these areas shall be conducted in light of the high public 
value and integrity of the National Park System, and shall not 
be exercised in derogation of the values and purposes for which 
these various areas have been established.
    So we're not talking about general shoreline. My district 
includes Boston Harbor, and I have a lot of folks that are 
boaters and jet-skiers and enjoy the water very much. We're 
talking about a very specific jurisdiction here; national 
parks. God knows, there aren't enough of them, and we all know 
how much they are appreciated more and more by each succeeding 
generation.
    The National Park Service laws and regulations gave the 
agency broad authority how to make decisions about how to 
balance visitor recreation with the need to preserve each 
park's resources. Courts have consistently held that when there 
is a conflict between conservation and visitor recreation, 
conservation is the most important consideration. It's in this 
context that the National Park Service must make decisions 
about how to manage visitor activities.
    Today we're looking at one particular activity, the use of 
jet-skis or personal watercraft in national parks. Personal 
watercraft, more popularly known as jet-skis, are marketed as 
so-called thrillcraft. One current advertisement touts the jet-
ski's ability to allow aggressive turning and high-speed 
stability. Another advertisement promotes the fun and adventure 
and independence when it meets the power, performance and style 
of the jet-ski.
    This hearing is not about whether America should or 
shouldn't buy or use personal watercraft. I think wonderful 
technology and in the right place, it is a lot of fun, and I 
see a lot of people in my district enjoying that. This hearing 
is not about whether people should partake in that activity, 
which is fine and should be encouraged, but whether the use of 
these watercraft can be reconciled with the need to conserve 
the precious resources of each national park.
    The National Park Service has found that there are unique 
concerns related to the personal watercraft, and that those 
concerns should be considered in evaluating whether and how 
they should be allowed in certain parks. Personal watercraft 
are designed for speed and maneuverability to perform stunts. 
One of the concerns associated with personal watercraft is the 
noise associated with their use, in part because they're often 
operating very close to the shore.
    Additionally, personal watercraft have a shallow draft, and 
I know we've had studies along the Cape Cod seashore that have 
indicated that there's been some damage because these jet-skis 
can go where other watercraft cannot, and they're able to 
access areas including those close to the shoreline, which can 
affect vegetation and wildlife.
    Personal watercraft emit air and water pollution, which can 
have an impact on air and water quality. A conventional engine 
can discharge between 1 and 3 gallons of fuel during 1 hour of 
use at full throttle. I understand the industry is working on 
improving that technology, and that there are cleaner, better 
technology engines that are becoming available; however, there 
are still many, many vehicles with the conventional engines 
still in use.
    An important issue related to personal watercraft, no 
matter where they are, is safety, and the U.S. Coast Guard 
reports that personal watercraft accounted for about 25 percent 
of boat accidents in 2004, with more than one-third involving 
riders age 19 or younger. So the safety issue has to be met 
within the National Park Service if this activity will go 
forward. We need to put the funding in to make sure that safe 
handling of these vessels can be managed and that people who 
may have these accidents which are shown to occur can be 
rescued, can be protected.
    The National Park Service is still in the rulemaking 
process for five parks where personal watercraft is being used 
or actually is being considered. Though these rulemakings may 
have taken longer than anticipated, this is not an easy 
process. For one thing, the National Park Service is facing 
enormous resource constraints. There's only one full-time staff 
person right now handling all of the National Park Service 
regulation, including personal watercraft regulation.
    For each park where the National Park Service determines 
that personal watercraft may be allowed, it's important that 
the agency carefully and thoroughly analyze how personal 
watercraft will impact the park, including the potential impact 
on plants, wildlife, water and air quality and other visitors.
    Even if a determination is made that personal watercraft 
use is appropriate, the park must also determine how to manage 
that use in order to best preserve the park's resources and 
provide for the safety of those individuals using the 
watercraft. The National Park Service must balance that 
interest of visitors wishing to ride personal watercraft within 
the agency's mission to preserve the resources of each park for 
generations to come.
    I appreciate all the witnesses taking their time to help 
the committee on their work here today and to share their 
thoughts on this issue, and I look forward to the testimony.
    Thank you, Madam Chair. I yield back.
    Mrs. Miller. Thank you very much, Mr. Lynch.
    I would now like to recognize Mr. Cannon for an opening 
statement.
    Mr. Cannon. Thank you, Chairman Miller. I appreciate this 
hearing, it's very important to me. I appreciate your 
indulgence. I have two markups going on, and I wanted to 
apologize, too, for not being able to indulge in our witnesses 
because the issue is important.
    The purpose of the hearing is to examine the rulemaking 
process at the National Park Service governing personal 
watercraft use. It's difficult to examine the rulemaking 
process where there doesn't actually seem to be a process. The 
Park Service has issued rulings regarding which parks allow use 
of PWCs and which can't. The NPS has complicated matters by 
delaying completion of this process in a variety of ways for 
almost 6 years, thereby making this process completely unclear.
    As an aside, I chair the Judiciary Subcommittee on 
Commercial and Administrative Law, and we're doing a review of 
the Administrative Procedure Act, and this is going to be one 
of those issues we take a look at.
    This lack of clarity has left many national parks in a 
state of limbo, unsure whether they will be allowed to grant 
access to PWCs, and the bureaucratic nature of the NPS has 
resulted in the loss of revenue for a major industry, the loss 
of numerous jobs, and the subsequent loss of revenue for our 
economy as a whole. The PWC Industry Association estimates that 
the bans by NPS cost the industry about $144 million a year 
directly. That does not include all the people that are 
supported by and employed in the business of renting and 
maintaining and the tourism that comes from this. The PWIA 
estimates that the National Park Service bans will cost about 
3,300 direct and indirect jobs in 2000 and 2001.
    We are not here to talk about the environmental impact of 
PWCs to date. That issue has been determined and environmental 
studies conducted in each park that PWCs would be allowed. In 
fact, it has been a average of nearly 30 months since the 
environmental assessments for each of the parks was released.
    The issue of this hearing, and my concern, is the 
government could be such a destructive force to business just 
by delay. The PWC industry has played by the rules and waited 
patiently for NPS to complete the rulemaking procedures, yet 
NPS has continuously shirked its responsibility. The NPS needs 
to be accountable for the slowness and the gross negligence of 
this process. NPS must answer why there's never been a 
scientific study conducted to support the legitimacy of the 
systemwide PWC bans that exist today in the national parks. The 
NPS must respond to the numerous requests by Members of 
Congress to reconsider NPS bans that have been never subject to 
an environmental assessment, and explain why it's created a 
rulemaking process that condemns an industry by making the 
default policy an immediate ban on their products.
    By the way, for those who haven't used PWCs, you're invited 
to come to the most beautiful place on the face of the Earth, 
which used to be in my district, but not now, but Lake Powell. 
It is a place where it is directly affected by this. Nobody 
wants to damage the environment, but ski jets are a lot of fun, 
and it's a great industry.
    In its enabling statute, Congress instructed the NPS to 
conserve the scenery and the natural and historic objects and 
the wildlife therein, and to provide for the enjoyment in such 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations. I won't sit here and 
deliberate whether NPS achieves the mission; however, I would 
think it wise for the decisionmakers in this particular 
situation to let this committee know whether the issue of 
delaying PWC fits within its mission. As it stands, 
preservation doesn't appear to be the driving force behind the 
rulemaking process.
    I look forward to your testimony and with that yield back 
the balance of my time, Madam Chairman.
    Mrs. Miller. Thank you very much.
    You are certainly excused whenever. We appreciate your 
attendance here for your opening statement. And it is widely 
acknowledged that Lake Powell is a beautiful place on the 
planet, of course surpassed a bit by Lake St. Clair in 
Michigan.
    Mr. Cannon. The stark beauty of the bright red sandstone 
and the bright blue water, and the clear, cloudless sky 
unimpaired by all those trees that hide your landscape.
    Mrs. Miller. All our water is fresh. However, I will say 
this: There is a lot of interest--before we get to the 
witnesses, there obviously is a lot of interest amongst the 
Congress. This is not a partisan issue, and many people are 
very parochial about their parts of the Nation that we all 
represent, and this is a very hotly debated issue, as you might 
imagine. And, in fact, before we get to the witnesses, let me 
also state for the record that both Chairman Pombo, who is the 
Chairperson of the House Resources Committee, and 
Representative Steve Pearce, who is the chairman of the 
resources Subcommittee on National Parks, both wanted to be 
here for the hearing, but they were unable to come because of 
their schedules. However, Chairman Pearce had actually held a 
hearing on this topic in May 2005. Both of them obviously have 
a strong interest in seeing the Park Service complete the 
rulemaking effort. They have a written statement, and, without 
objection, both of them will be submitted to the record.
    And we are joined by Mr. Akin. I recognize Mr. Akin for an 
opening statement as well.
    Mr. Akin. Thank you very much, Chairwoman, for holding this 
important hearing today, and I'm not actually a member of the 
Government Reform Committee, but I am the chairman of the 
regulatory oversight, Committee on Small Business. So we have a 
shared interest in your hearing today, and I wanted to 
congratulate you on taking up a topic that I think is very 
important.
    I'm deeply concerned by what appears to me to be a 
continued delay in the Park Service in working through this 
issue over a period of a number of years, which appears to have 
lost many jobs over the last 9 years and has had a considerable 
impact on small business, particularly in the area of the 
watercraft that are near these different various parks that are 
affected.
    I don't know that I need to probably reiterate what I 
think, Chairwoman, that you probably made clear in this 
committee, the fact that small businesses are a very, very 
large part of jobs in America and a very significant part of 
our economy overall. And I just think we have to get past the 
foot-dragging state, and I understand it's a controversial 
issue, but have to come to our conclusions.
    I did have questions and things, but I have two other 
committees I'm supposed to be at as well, so thank you very 
much for letting me join you and weighing in to say let's get 
off the nickel, and let's get moving on this project. Thank 
you.
    Mrs. Miller. Thank you very much. I appreciate your 
attendance.
    [The prepared statement of Hon. W. Todd Akin follows:]

    [GRAPHIC] [TIFF OMITTED] T7092.004
    
    [GRAPHIC] [TIFF OMITTED] T7092.005
    
    Mrs. Miller. It's the committee's process to ask all the 
witnesses to be sworn in before you do testify, so if you could 
all rise and raise your right hands.
    [Witnesses sworn.]
    Mrs. Miller. We appreciate that.
    With the indulgence, what I would like to do is recognize 
Mr. Cannon for several questions. I know he has a markup and 
needs to leave. So before we actually have our testimony from 
the witnesses, Mr. Cannon.
    Mr. Cannon. That is very kind of you. I deeply appreciate 
it. I would look forward to the witness testimony and wish them 
the best.
    If you don't mind, I just have a few questions for you, Ms. 
Taylor-Goodrich. Given the amount of time that's elapsed since 
the file rule was established and the grace period has expired, 
wouldn't it be reasonable to open the remaining parks so 
another boating season isn't missed?
    Ms. Taylor-Goodrich. Good morning. Can you hear me? Thank 
you. Karen Taylor-Goodrich, Associate Director for Visitor and 
Resource Protection.
    Your question I understand to be can we open----
    Mr. Cannon. Quickly so we don't miss a season.
    Ms. Taylor-Goodrich. We're not considering that option at 
this point. We are not considering that option.
    Mr. Cannon. Are you saying that the timing of the coming 
boating season is not being considered by the Park Service?
    Ms. Taylor-Goodrich. We are in the process of our 
rulemaking we anticipate, which I'll cover in my testimony as 
well and give you an update on where we are with each of the 
parks. We need to have everything in place by this summer.
    Mr. Cannon. By this summer, what month does that mean in 
particular?
    Ms. Taylor-Goodrich. I can cite specific examples. We're 
looking at in one case for Big Thicket National Preserve the 
summer of 2007.
    Mr. Cannon. So are we talking about June or the end of 
August?
    Mrs. Miller. Could you move your mic a little closer? I'm 
not sure if it's working.
    Ms. Goodrich-Taylor. I would also like to ask--I'm not sure 
you can hear me.
    If permissible, I have our regulations program sheet with 
me that can provide detailed information.
    Mr. Cannon. Are you looking at trying to get this 
implemented; so have you considered it in the past? Rulemaking 
has its own timeframes. Have you considered doing this in a way 
that would optimize this summer season? We don't use PWCs when 
it's cold. So is that part of the thinking, and if so, are we 
working at the beginning of the summer or calling it summer 
when it's really August 31st?
    Ms. Taylor-Goodrich. Depending on the park and where they 
are in the rulemaking process, the earliest would probably be 
June. But we are responsible and obligated to follow the 2000 
rule and settlement agreement where we have to follow through 
with all parts of the rulemaking process before we allow 
opening that.
    Mr. Cannon. Members of Congress have requested the NPS 
reconsider the ban by starting the process of an environmental 
assessment. It is my understanding that NPS ignored these 
requests. Can you tell me why these were ignored, and what's 
going to happen with the new Biscayne National Park petition?
    Mrs. Miller. Could I ask, Mr. Garcia, perhaps you can pass 
that microphone over to her. For some reason our wonderful 
technology has failed.
    Ms. Taylor-Goodrich. Is that better?
    Your question is what is the status of Biscayne National 
Park.
    Mr. Cannon. Yes.
    Ms. Taylor-Goodrich. The petition we have received, we are 
in the process of responding, preparing a response to that 
petition.
    Mr. Cannon. Do you know the timeframe for responding to 
that petition?
    Ms. Taylor-Goodrich. We should have it to the industry 
within about a week and a half, 2 weeks. It's already in 
process and needs to be reviewed by final legislative affairs 
and then our Director to sign.
    Mr. Cannon. Since the NPS began to examine the 
environmental impacts, PWCs--numerous environmentally friendly 
models have been created. What steps have you taken to include 
this in your rulemaking process?
    Ms. Taylor-Goodrich. Each area that we are going through 
rulemaking is required to do an environmental impact. It's an 
environmental analysis [EA], pursuant to the policy acts, and 
that's where we look at alternatives in considering new 
technologies.
    Mr. Cannon. Have you done that with the new motors, the new 
versions of PWCs?
    Ms. Taylor-Goodrich. I'd have to ask our program manager 
specifics on that.
    Mr. Cannon. Would you make sure that you do that?
    Ms. Taylor-Goodrich. Absolutely.
    Mr. Cannon. How can NPS continue to support a complete PWC 
prohibition in the absence of any relevant studies?
    Ms. Taylor-Goodrich. We are managing our parks pursuant to 
what our organic legislation allows us to. We have determined 
through the 2000 rule that there are 21 parks that could be 
considered for PWC use. We still feel very comfortable with 
that decision. Each park is unique in itself, and we can't have 
a one-size-fits-all, open policy. The determination was made 
for appropriateness in those 21 parks, so each environmental 
analysis would account for localized conditions, and a complete 
ban is really pursuant to our legislation in those individual 
parks.
    We have 390 units in the National Park System, 21 of which 
were determined to be suitable because they allow in their 
legislation motorized motorboat use. And we consider PWCs in 
the same category, in essence, as motorboats. That's how they 
were determined.
    Mr. Cannon. Embedded in your answer is motorboats can be 
used in these areas, but PWCs can't until you make a ruling. 
Why is that?
    Ms. Taylor-Goodrich. They're considered a motorized vessel. 
They are a different kind vessel because they have a shallower 
draft, and they get into areas that are certainly more shallow, 
but ecologically sensitive.
    Mr. Cannon. Why is the presumption they can't be there 
until sometime, somewhere, somehow NPS acts?
    Ms. Taylor-Goodrich. National Park Service Organic Act 
allows for the National Park System to err on the side of 
conservation. Mr. Lynch read the statement from our mission 
where we are responsible certainly for the enjoyment, for 
visitor enjoyment, but our primary purpose is for conservation 
of natural and cultural resources. There are certain areas, and 
we can provide more detailed answers, if you would like.
    Mr. Cannon. Why is the presumption that you can't use PWCs, 
and then you have this almost infinite--at least in the life 
cycle of business products, 6 years is an incredible amount of 
time that the NPS has not done anything. The delay has injured 
business, hurt business, I think hurt the parks, not allowed 
people to enjoy them the way they can. While you can speed 
around and make very sharp turns, as Mr. Lynch mentioned, and 
have a lot of fun with these things, they take you into these 
areas and allow for enjoyment.
    Why is there a presumption? I haven't heard what the 
context is for a presumption they shouldn't be allowed. You can 
distinguish them from boats, but why do you do so?
    Ms. Taylor-Goodrich. Back in the 1980's and then on into 
the 1990's when they became much more popular in national 
parks, the technology at that time was much rougher, as well as 
a little noisier, more cumbersome.
    Mr. Cannon. Did you make findings that those older models 
would damage the environment, or did somebody say, we don't 
like these, people are enjoying them too much, let's use our 
authority as an agency to prevent the activity until we figure 
out how to do it better. Was there a finding or just a 
conclusion by the system?
    Ms. Taylor-Goodrich. Our rulemaking in 2002 identified 
those areas where it would be appropriate to allow PWCs by 
virtue of the kind of parks that they were. The National Park 
Service, as part of our mission we have the responsibility to 
look at various types of use, and since PWCs are one type of 
use, since we have over 273 million visitors to the National 
Park System, we have to consider the visitor experience for all 
visitors, and the 2000 rule identified those areas where it 
would be appropriate, no matter what the technology would be, 
even though we are looking, to answer your question, and we 
take into those accounts those technologies at the areas where 
it's appropriate.
    But it's our responsibility as the National Park Service to 
determine--we start from a point of nonmotorized use except 
where motorized boats are allowed in specific legislation as a 
baseline for the National Park Service. We work our way up on 
appropriate levels of motorized use after that. The 2000 rule 
is what allowed us to have those 21 parks to be considered for 
PWC use.
    Mr. Cannon. Madam Chairman, I notice my time has expired. I 
can understand why the industry is so frustrated, and yield 
back.
    Mrs. Miller. Thank you very much. Again, we appreciate your 
attendance, Mr. Cannon, as we've gone a bit out of order here.
    But let me introduce our first witness who's already done 
some testifying here this morning, Karen Taylor-Goodrich. She's 
the Associate Director for Visitor and Resource Protection at 
the National Park Service. She has served as a Deputy Associate 
Director for Park Operations and Education, also held a wide 
range of positions within the Park Service that includes 
natural and cultural resource management, back country 
wilderness management, and visitor services as well.
    She's even served as a ranger with the National Parks and 
Wildlife Service at a national park in New South Wales, 
Australia. She earned her Bachelor's of Science degree in 
geography from Portland State University in Oregon and has done 
graduate work in natural resources through the Park Service 
Natural Resources Management Trainee Program.
    We welcome you here this morning. The floor is yours. You 
already had a bit of the flavor of these boxes that you have in 
front of you with the light system that we use, so we ask you 
to try to keep your testimony to not much longer than 5 
minutes, if you could. Although, we'll let you go a little over 
if you need to. The yellow light is a 1-minute caution and the 
red is a 5.

  STATEMENT OF KAREN TAYLOR-GOODRICH, ASSOCIATE DIRECTOR FOR 
    VISITOR AND RESOURCE PROTECTION, NATIONAL PARK SERVICE, 
    DEPARTMENT OF THE INTERIOR, ACCOMPANIED BY JERRY CASE, 
               REGULATIONS POLICY PROGRAM MANAGER

    Ms. Taylor-Goodrich. Thank you very much. And good morning 
again, Ms. Chairman, members of the subcommittee. We do 
appreciate you holding this oversight hearing to take a look at 
PWC and the National Park System. I'll read from my testimony. 
I won't cover every point, but I'd like to refer to it.
    Providing for the enjoyment of the national parks' 
resources and values is the fundamental part of what we do in 
the National Park Service. That's for all units, all 390 units, 
of the National Park System. The desire to provide access to 
park resources is the reason we have roads, accommodations, 
other recreational facilities in our national park units. It's 
also the reason that we continuously seek ways to provide 
appropriate recreation opportunities and to improve the 
experience for all of our 273 million-plus visitors.
    Among the types of recreational uses currently permitted in 
national parks, PWCs became popular in the 1980's, throughout 
the 1990's and currently. Since that time, watercraft use has 
occurred at some level in approximately 32 of the 87 areas of 
the National Park System that allow motorized boating. We have 
grouped personal watercraft among other motorized vessels. 
Historically, PWC use within the unit was allowed with special 
regulations published within a Superintendent's Compendium, 
when it allowed for use by other vessels. In the late 1990's, 
87 park units allowed motorized boating, including PWCs.
    One of the questions Representative Cannon had was why do 
we have a ban, a universal ban? We start from that point 
pursuant to the Organic Act, but given the wide variety of our 
units, the appropriateness of a given recreational activity 
will vary from park to park. An appropriate use is based first 
on the mandated purpose established by the park's enabling 
legislation as well as a sensitivity to the resources, values 
and visitor access. And due to these differences, our 
management policies recognize that an activity that is 
appropriate when conducted may be inappropriate conducted in 
another type of park.
    As you mentioned earlier, Ms. Chairman, in 1998, the 
Bluewater Network filed a petition urging the NPS to initiate 
rulemaking to prohibit personal watercraft throughout the 
National Park System. In response to the petition, we conducted 
an analysis of the original 87 sites, examining enabling 
legislation, resource sensitivity, values, and visitor access; 
and then in March 2000, we published a final regulation 
identifying 21 units of the National Park Service that could 
continue PWC use.
    The final rule gave park managers until September 2002 to 
determine whether to pursue a new rulemaking procedure to 
continue PWC use in the 21 units. In August 2000, we negotiated 
a settlement agreement with the Bluewater Network and its 
parent organization, as you mentioned, the Earth Island 
Institute. This was in response to a lawsuit from those 
organizations that challenged our decision to allow personal 
watercraft in those 21 units.
    The settlement agreement was very specific. It specified 
that no PWC use within the National Park System after September 
15, 2002, could be pursued without a comprehensive 
environmental analysis and a rule allowing the use in that 
unit. The environmental analysis pursuant to that settlement 
must include impacts on water quality, air quality, sound, 
wildlife, shoreline, vegetation, visitor conflict and visitor 
safety.
    Of the 21 units originally considered in the rule for 
continued PWC use, 5 units made administrative determinations 
to not allow PWCs. This determination was based on the unit's 
legislative history, regulatory authorities, and the required 
environmental analysis factors. Each determination was made 
with public participation, including public meetings and 
participation by advisory commissions and State and local 
governments.
    Ten of the 15 remaining parks have completed the rulemaking 
process and are open to PWC use. The remaining five are in the 
process of complying with the National Environmental Policy Act 
and promulgating regulations pursuant to our settlement 
agreement.
    Gulf Islands National Seashore is currently under final 
signature review and should be published in the Federal 
Register very shortly. The final rule for Cape Lookout should 
be published before the summer season. Final rules for Gateway 
and Curecanti should be published in midsummer of 2006. Big 
Thicket's finishing their NEPA work right now, and will 
promulgate rulemaking shortly.
    Since 2000, we have devoted substantial resources to the 
study of appropriate methods of managing personal watercraft in 
units in the National Park System. The laws and policies 
applicable to the management of the National Park System afford 
us as the National Park Service broad discretion and mandate no 
single method for satisfying our responsibility to protect park 
resources. We can use a variety of administrative tools, 
including: visitor education, increased enforcement, regulatory 
measures, including seasonal closures and flat wake zones; and 
use limits, including numerical caps, to manage these personal 
watercraft use areas.
    For example, Lake Mead National Recreation Area established 
a lake carrying capacity, implemented management zoning to 
separate recreational activities, and is incorporating a phase-
in of cleaner engine technologies. Glen Canyon Recreation Area, 
that's Lake Powell that Mr. Cannon referred to, PWCs continue 
to be very popular, with increased use of PWCs up about 12 
percent since 2001.
    In those areas where PWC use is allowed, the parks will 
rely heavily on our partners in the gateway communities to 
educate visitors and encourage responsible and safe use of our 
PWCs. We also rely on industry to develop new technologies that 
may help parks balance visitor use and resource conservation.
    In conclusion, we're dedicated to improving recreation 
opportunities for all park visitors, and we also provide 
opportunities to the public, including PWC users where 
appropriate, to increase recreational opportunities.
    I appreciate very much the opportunity to speak before you. 
I mentioned earlier that I have our regulations policy program 
manager Jerry Case here to be available for questions as 
appropriate.
    Mrs. Miller. Thank you. Appreciate that.
    [The prepared statement of Ms. Taylor-Goodrich follows:]

    [GRAPHIC] [TIFF OMITTED] T7092.006
    
    [GRAPHIC] [TIFF OMITTED] T7092.007
    
    [GRAPHIC] [TIFF OMITTED] T7092.008
    
    [GRAPHIC] [TIFF OMITTED] T7092.009
    
    [GRAPHIC] [TIFF OMITTED] T7092.010
    
    Mrs. Miller. Our next witness this morning is Mr. Fernando 
Garcia, director of public and regulatory affairs, with 
Bombardier Recreational Products, with U.S. operations based in 
Wisconsin. In 1986, he became a marine engineering manager with 
Yamaha Motor Corp. USA, charged with product planning and 
validation for the company's outboard and stern drive engines 
and recreational fishing boats. In 1995, he joined Bombardier 
where his responsibilities include public affairs and 
regulatory compliance of all product lines on a domestic and 
international scope. We welcome to you the hearing.

STATEMENT OF FERNANDO GARCIA, DIRECTOR OF PUBLIC AND REGULATORY 
           AFFAIRS, BOMBARDIER RECREATIONAL PRODUCTS

    Mr. Garcia. Good morning, Chairwoman Miller, distinguished 
members of the committee. Thank you for this opportunity to 
represent the personal watercraft industry and Bombardier 
Recreational Products [BRP]. Again, my name is Fernando Garcia. 
I am chairman of the board of the Personal Watercraft Industry 
Association and director of regulatory and public affairs of 
BRP.
    I'm here to address this subcommittee on a very important 
issue, the National Park Service's ban of personal watercraft. 
In order to illustrate the nature and the consequential 
economic damage of the PWC bans, I feel I must take a moment to 
update you on the state of the personal watercraft market 
today.
    In the mid-1990's, nearly 200,000 personal watercrafts were 
sold annually in the United States, and in 2005, it is 
estimated that only some 80,000 units were sold. There is no 
doubt in my mind, and I'm 100 percent certain, that the bans 
implemented at the National Park Service level are primarily to 
blame for this substantial decline.
    Early generation personal watercrafts were mostly stand-up, 
single-type vessels, as we have displayed on our boards. 
Critics of the vessels still attempt to portray this outdated 
image of the product as current reality. The truth is that 
personal watercrafts have evolved. They are sit-down models, 
mostly equipped with clean-running engines like the one in your 
automobile; family oriented vessels, as they accommodate up to 
three persons. They account for 99 percent of the PWC market.
    In the 1990's, PWCs were criticized over their sound level 
and concerns with air and water emissions. The industry 
responded by investing over $1 million in the last 10 years in 
new technologies. Today's PWCs are among the cleanest, quietest 
boats on the water, and indeed they are boats.
    Industrywide, any new PWC model uses cleaner-running four-
stroke or newer two-stroke engine technologies that have 
reduced emissions by at least 75 percent, and in many cases 
much more, well ahead of the enforcement schedules. New models 
are also 70 percent quieter than those produced before 1998.
    More importantly, the National Park Service's own 
environmental assessments have confirmed time and time again 
that PWC use will neither impair nor significantly impact the 
environment or human health. Fifteen parks, not 1, not 2, but 
15, have taken the time to evaluate PWCs, and the National Park 
Service has decided that PWC use is appropriate, will not 
impair park resources, and should resume.
    Unfortunately, critics of PWCs continue to use inaccurate 
and outdated information to justify PWCs owners from operating 
their craft in areas where other forms of motorized 
motorboating are allowed. Such an example is what we heard 
earlier this morning of fuel spillage. This is a claim that is 
a very case-specific, very worst-case scenario that is not 
representative of PWCs back in that era and this era. There are 
other motorized marine engines that have characteristics 
similar to this that are in continued use.
    The regulatory backlog and lack of response from the 
National Park Service with regards to reopening parks to 
personal watercraft use has been frustrating for my entire 
industry. In March 2000, the NPS banned PWCs systemwide, but 
allowed some PWC use to continue for a 2-year grace period in 
21 units where other motorized boating was prevalent. The 21 
units were to evaluate PWCs during this 2-year period, and, if 
appropriate, reauthorize continued PWC use after a grace period 
expired.
    Due to a lawsuit brought by an environmental extremist 
group, the rule was effectively amended to require each of the 
21 units to conduct a full NEPA analysis and complete a special 
rulemaking before reauthorizing PWC use. Not a single park has 
complied within the grace period. As a result, PWC users were 
effectively banned throughout the park system.
    To date, only 10 units have completed the rulemaking 
process, while 5 other units have unexpectedly stalled in the 
rulemaking process, with no sign of progress for yet another 
boating season.
    We estimate that these delays have caused my industry to 
suffer a $2 billion loss based on unfounded allegations. 
Countless family run businesses, suppliers and others are no 
longer in operation because of these bans. In 2004, even 
Polaris Industry, a major U.S. manufacturer, ceased 
manufacturing personal watercraft.
    We're asking this committee to no longer accept these 
allegations and rest on the findings of these 15 consecutive 
scientific studies to reopen the stalled parks immediately. The 
grace period expired in 2002; 4 years later the National Park 
Service still fails to commit to a near-term, hard deadline to 
complete the rulemakings.
    BRP is one of the largest investors in the boating market 
and employs more than 1,400 people in the United States and 
6,200 worldwide, with manufacturing and product development and 
distribution operations in Wisconsin, North Carolina, Illinois 
and Florida. While I take great pride that BRP is the market 
leader, this market is not what it should be given the 
investment our entire industry has made to make today's 
personal watercraft both environmentally and family friendly.
    This decline in sales caused by the NPS bans forced us to 
close our headquarters of Sea-Doo activities in Melbourne, FL. 
Due to the decline in demand, we consolidated our teams. Nearly 
the entire Melbourne staff was released. My colleagues and 
friends were without their jobs.
    In closing, our industry is seeking your assistance in this 
matter. We have repeatedly made the case to the National Park 
Service that they must streamline its regulatory process in 
light of their own scientific findings. Studies have shown that 
PWCs cause no unique environmental harm, but still the 
rulemaking for the remaining six parks languish, and as long as 
the National Park Service bans PWCs, I fear other local lakes 
and seashores across the country will follow suit.
    I have asked for your help to ensure the National Park 
Service quickly expedites the rulemakings. Each boating season 
that goes by with these bans still in effect has an estimated 
cost to the U.S. economy that exceeds $500 million a year. We 
recommend that all remaining rules be issued no later than 
April of this year, as we asked last May 2005, so that 
consumers have time to purchase their personal watercraft for 
this boating season. I thank you for your time and concern.
    Mrs. Miller. Thank you very much.
    [The prepared statement of Mr. Garcia follows:]

    [GRAPHIC] [TIFF OMITTED] T7092.011
    
    [GRAPHIC] [TIFF OMITTED] T7092.012
    
    [GRAPHIC] [TIFF OMITTED] T7092.013
    
    [GRAPHIC] [TIFF OMITTED] T7092.014
    
    [GRAPHIC] [TIFF OMITTED] T7092.015
    
    [GRAPHIC] [TIFF OMITTED] T7092.016
    
    [GRAPHIC] [TIFF OMITTED] T7092.017
    
    [GRAPHIC] [TIFF OMITTED] T7092.018
    
    [GRAPHIC] [TIFF OMITTED] T7092.019
    
    Mrs. Miller. Our next witness is Laura Baughman. She's the 
president of the Trade Partnership, a trade and economic 
consulting firm. Ms. Baughman has been an economist since 1977, 
and she follows closely the impacts, both prospective and 
actual, on policies and programs on the U.S. economy and the 
trade flows of U.S. trading partners. The Partnership also 
follows the U.S. trade policy formulation process, assisting 
clients and providing input to that process.
    We certainly appreciate your attendance here today at the 
hearing and look forward to your testimony now.

 STATEMENT OF LAURA BAUGHMAN, PRESIDENT, THE TRADE PARTNERSHIP

    Ms. Baughman. Thank you very much.
    Good morning, Madam Chairwoman and members of the 
subcommittee. My name is Laura Baughman, and I am president of 
the Trade Partnership, an economic consulting firm based here 
in Washington, DC, that specializes in assessing the economic 
effects of U.S. policies and regulations. I am pleased to 
appear before you today to summarize the results of some 
research that we completed recently regarding the economic 
effects of the National Park Service bans on the use of 
personal watercraft in selected U.S. park areas.
    As you know, the use of PWC has been adversely affected by 
consideration and implementation of bans on their use in U.S. 
national parks. The negative impacts of the bans and the 
publicity associated with the bans has resulted in lost sales 
since 1995, as shown on that chart over there. I'll refer to 
this version here because it's closer. But from here to here 
you can see the decline in sales.
    Lost sales in turn have adversely impacted U.S. producers 
and distributors of PWCs, suppliers, retailers and other 
businesses that service PWC, and their users. The decline in 
sales volume grew annually from 1996 to 2001 and stabilized at 
about 80,000 units per year since then, down from 200,000 units 
in the early 1990's. Sales volumes in the 2002 to 2004 period 
are just 40 percent of what they were in 1995 prior to the 
adverse publicity about the potential for bans.
    Our research examined the national impacts of the PWC bans 
on output and unemployment over the 1995 to 2004 period. It 
measured the impacts on both up and downstream industries 
throughout the U.S. economy. These impacts are negative and 
significant.
    But before I detail our national findings, I think it's 
important for you to know the National Park Service itself is 
now quantifying significant adverse impacts of the bans on the 
local economy surrounding park areas. When it first published 
its rule in 1998, the NPS stated that, ``it expects little, if 
any, economic impacts on PWC users or the PWC industry on a 
regional or national basis.''
    It based this assertion on several premises that did not 
turn out to be true: that a grace period during which PWC use 
could continue would mitigate negative impacts, and an 
assumption that alternative sites exist for PWC use. Subsequent 
economic analyses commissioned by the NPS from an independent 
contractor team using a technique known as input-output 
analysis contradicted these expectations, finding significant 
potential negative impacts on regions located adjacent to the 
parks contemplating bans, and even negative actual impacts on 
those regions associated with the potential for bans.
    The total annual downstream cost for the 10 parks studied 
so far exceeds $86 million a year. The NPS studies found that 
the bans impacted local economies in three ways. First, 
families that might have wanted to buy a new PWC to use at a 
local park would no longer do so. In most instances, the local 
retailers reported to NPS that a ban would cause their sales of 
PWCs to fall by as much as 100 percent. In addition, just the 
publicity about possible bans caused a reduction in sales of 
PWC.
    Second, NPS interviews found that in many instances rental 
income from PWC dropped by 100 percent as well.
    Third, spending associated with PWC use would decline, 
including spending on hotels, restaurants and grocery stores, 
fuel and other PWC maintenance expenses, park admission and 
camping fees, and related State and local taxes.
    Eighty-six million a year may seem like a lot, but is 
actually not the full picture, because the NPS-commissioned 
assessments only estimate, as I said, the downstream impacts of 
the ban, ignoring the upstream impacts on PWC manufacturers and 
their raw material suppliers.
    In addition, the bans have had a negative impact beyond the 
economies nearest the parks, an impact not measured by the NPS 
studies. Thus, as large as the NPS estimates are, they 
understate the true impacts of the bans on the U.S. economy.
    The purpose of our researching, using the same input-output 
methodology, was to look at the full picture, to estimate the 
up as well as the downstream impacts of the bans on the United 
States as a whole, not just on the economy surrounding the 
affected parks.
    Our findings can briefly be summarized as follows. Direct 
cost to the PWC industry of continued uncertainty associated 
with the bans and the existing bans themselves is estimated to 
total about $1.3 billion over the last 9 years. That's this 
area here. This cost affects hundreds of other sectors of the 
U.S. economy, bringing the total hit to the American economy of 
PWC bans and the negative publicity around them to $2.7 billion 
over the last 9 years. That includes sectors such as Mr. 
Hamer's.
    The estimated total cost to the U.S. economy of the bans 
and the negative publicity around them will continue at a pace 
of more than $567 million a year as long as the bans continue. 
The employment cost of the bans and the negative publicity 
around them has grown and today averages about 3,300 direct and 
indirect jobs lost across the United States. This job cost will 
also continue as long as the bans persist.
    Our results derive from conservative assumptions and factor 
out possible alternative reasons for declines in sales during 
the period. Our analysis is consistent with the studies 
conducted by the National Park Service, but is more 
comprehensive, and thus provides you with a fuller estimate of 
the economic effects of the bans and of continued hesitation by 
parks to publish final rules on PWC use.
    Again, I appreciate the opportunity to present the results 
of this research to you today. I would, of course, be pleased 
to answer any questions you have about it. Thank you.
    Mrs. Miller. Thank you very much.
    [The prepared statement of Ms. Baughman follows:]

    [GRAPHIC] [TIFF OMITTED] T7092.020
    
    [GRAPHIC] [TIFF OMITTED] T7092.021
    
    [GRAPHIC] [TIFF OMITTED] T7092.022
    
    [GRAPHIC] [TIFF OMITTED] T7092.023
    
    [GRAPHIC] [TIFF OMITTED] T7092.024
    
    [GRAPHIC] [TIFF OMITTED] T7092.025
    
    [GRAPHIC] [TIFF OMITTED] T7092.026
    
    [GRAPHIC] [TIFF OMITTED] T7092.027
    
    [GRAPHIC] [TIFF OMITTED] T7092.028
    
    [GRAPHIC] [TIFF OMITTED] T7092.029
    
    [GRAPHIC] [TIFF OMITTED] T7092.030
    
    [GRAPHIC] [TIFF OMITTED] T7092.031
    
    [GRAPHIC] [TIFF OMITTED] T7092.032
    
    [GRAPHIC] [TIFF OMITTED] T7092.033
    
    [GRAPHIC] [TIFF OMITTED] T7092.034
    
    [GRAPHIC] [TIFF OMITTED] T7092.035
    
    [GRAPHIC] [TIFF OMITTED] T7092.036
    
    [GRAPHIC] [TIFF OMITTED] T7092.037
    
    [GRAPHIC] [TIFF OMITTED] T7092.038
    
    [GRAPHIC] [TIFF OMITTED] T7092.039
    
    [GRAPHIC] [TIFF OMITTED] T7092.040
    
    [GRAPHIC] [TIFF OMITTED] T7092.041
    
    [GRAPHIC] [TIFF OMITTED] T7092.042
    
    [GRAPHIC] [TIFF OMITTED] T7092.043
    
    [GRAPHIC] [TIFF OMITTED] T7092.044
    
    [GRAPHIC] [TIFF OMITTED] T7092.045
    
    [GRAPHIC] [TIFF OMITTED] T7092.046
    
    [GRAPHIC] [TIFF OMITTED] T7092.047
    
    [GRAPHIC] [TIFF OMITTED] T7092.048
    
    [GRAPHIC] [TIFF OMITTED] T7092.049
    
    Mrs. Miller. Next we're going to hear from John Hamer. Mr. 
Hamer is currently a managing partner of Motorsports Investment 
Group, which owns five dealerships in Florida. He and his 
partners owned the predecessor Motorsports of Miami from 1973 
to 1999, at which time they sold that company. And he continued 
to work as the company's vice president and chief operating 
officer until he and his partner repurchased Motorsports of 
Miami and four other dealerships in 2003. He's worked in the 
motorsports industry for over 32 years, so should have some 
very interesting testimony about this particular subject.
    And we welcome you Mr. Hamer, and the floor is yours, sir.

      STATEMENT OF JOHN HAMER, OWNER, MOTORSPORTS OF MIAMI

    Mr. Hamer. Good morning. Thank you for inviting me to 
testify before this subcommittee. My name is John Hamer, and I 
own and operate Motorsports of Miami along with my partner, a 
dealership that sells and services personal watercraft, 
sportboats, motorcycles and off-road vehicles. My dealership is 
located in the area of Miami known as Cutler Ridge, which is 
between the heart of the city of Miami and Homestead. It is 
also the closest personal watercraft dealership to Biscayne 
National Park.
    I have seen firsthand all the ebbs and flows of the 
personal watercraft popularity due to the ban of PWCs at 
Biscayne National Park which went into effect in 2000. I can 
personally attest to the fact that my business suffered greatly 
due to the ban.
    I have been in the motorsports industry since 1973, and in 
1981 my partners and I relocated our dealership to South Dade 
and got into the personal watercraft business, and they 
increasingly became an important part of that business. Of all 
the products we sold, personal watercraft sales skyrocketed in 
the early 1990's. At one point we were selling 800 personal 
watercraft per year. Our sales were so high that we hired 
personnel dedicated solely to PWC sales and service, in 
addition to opening a new showroom for that purpose.
    The market for personal watercraft was growing as well. All 
types of consumers became interested, especially families for 
whom personal watercraft is the only boat they can afford, yet 
it is banned in places where more expensive boats can operate. 
In the late 1990's, when news began to spread about the 
possibility of banning personal watercraft use at Biscayne 
National Park, our customer base declined markedly. You might 
think that being in Miami there are plenty of other places to 
boat; if not Biscayne, then someplace else. This isn't the 
case. My customers have no other choice but to trailer boats 
from south Miami to Key Largo or somewhere else. In many cases 
that can take over an hour.
    Even before the personal watercraft ban went into effect in 
2000, the rumors around the potential ban precipitated a 
decline in PWC sales at my shop. Sales slipped from an average 
of 800 vessels per year to 200 per year in the late 1990's, and 
by 2002 sales leveled off at 25 percent of the previous sales. 
To be more specific, we sold just 201 personal watercrafts in 
2005.
    Since my shop is located directly next to the park where 
personal watercraft are banned, we felt a more dramatic hit 
than other dealers. As Ms. Baughman pointed out, the average 
decline in sales due to the ban was 60 percent, while my shop 
suffered a 75 percent decline. This sharp decline in sales 
forced Motorsports of Miami to downsize. The showroom was 
closed, repairmen were laid off, and our business shrunk. I 
watched the business nearly shatter.
    To really appreciate the absurdity of the Biscayne ban, you 
must see it for yourself. There are no physical boundaries that 
wall off the waters of Biscayne National Park from those of the 
Atlantic Ocean. So imagine you are a personal watercraft rider; 
you have to ride 8 miles or more out into the water where the 
waves become larger, and the ride becomes more dangerous. 
Furthermore, there is no sign that tells you when you have 
passed the boundaries of the park. You don't know when it's 
allowable for you to return closer to shore. In the meantime, 
all other types of boats, fishing, pleasure, are cruising the 
waters of Biscayne National Park.
    As I look back, the most frustrating part of this whole 
situation is the authorities at Biscayne National Park have 
never even conducted an environmental assessment to investigate 
whether this ban is warranted or not. A letter came down from 
the National Park Service headquarters here in Washington, DC, 
alleging personal watercraft were bad for the environment, and, 
therefore, the park could ban them. As you know now, these 
allegations have been proven untrue in 15 consecutive instances 
where they conducted an environmental assessment since the year 
2002.
    Two petitions have been filed requesting that the same 
scientific study be conducted at Biscayne National Park, but we 
have been denied. So here we are today. We hope you can resolve 
this matter quickly. You have the oversight authority that I do 
not. I would like to know from the National Park Service why it 
is taking so long for our voices to be heard. At the very 
least, I deserve an explanation of what could be so important 
that my business and livelihood must suffer.
    Enough is enough. This ruling was issued 6 years ago. Until 
now, we've been largely ignored, and the layers of red tape at 
the Park Service pile higher and higher. I implore you to 
demand an environmental assessment and rulemaking begin 
immediately at Biscayne National Park. Otherwise, the National 
Park Service will simply tell us that Biscayne National Park 
wasn't part of their original plan, so we should just go away 
and be ignored.
    Thank you for calling this hearing and investigating this 
matter. Please use your leadership and oversight to put an end 
to the rulemaking delays that have caused great hardship for 
small businesses and boaters. Thank you very much.
    Mrs. Miller. Thank you very much, Mr. Hamer.
    [The prepared statement of Mr. Hamer follows:]

    [GRAPHIC] [TIFF OMITTED] T7092.050
    
    [GRAPHIC] [TIFF OMITTED] T7092.051
    
    [GRAPHIC] [TIFF OMITTED] T7092.052
    
    [GRAPHIC] [TIFF OMITTED] T7092.053
    
    [GRAPHIC] [TIFF OMITTED] T7092.054
    
    [GRAPHIC] [TIFF OMITTED] T7092.055
    
    [GRAPHIC] [TIFF OMITTED] T7092.056
    
    [GRAPHIC] [TIFF OMITTED] T7092.057
    
    [GRAPHIC] [TIFF OMITTED] T7092.058
    
    Mrs. Miller. Our final witness this morning is Carl 
Schneebeck. He's a public lands campaign director for Bluewater 
Network, a position he's held since 2003. Before this, he 
managed a number of public land campaigns for the Jackson Hole 
Conservation Alliance in Jackson, WY; he served as a ranger 
naturalist at the Grand Teton National Park for 4 years, taught 
national history at the Teton Science School, and completed an 
internship at Muir Woods National Monument in California.
    A lifelong outdoor enthusiast, obviously, so we certainly 
appreciate your attendance at the hearing today and look 
forward to your testimony.

 STATEMENT OF CARL SCHNEEBECK, PUBLIC LANDS CAMPAIGN DIRECTOR, 
                       BLUEWATER NETWORK

    Mr. Schneebeck. Good morning. Thank you for having me here 
today. My name is Carl Schneebeck, and I am the public lands 
campaign director for Bluewater Network, a division of Friends 
of the Earth. I'm also testifying this morning on behalf of the 
Wilderness Society and the National Parks Conservation 
Association.
    I have had the privilege of serving as a National Park 
Service ranger in Grand Teton National Park, and I would 
contend that's the most beautiful place in the world.
    When Congress created the National Park Service in 1916 
with the Organic Act, it gave the agency a clear mission that's 
been mentioned this morning, to conserve the scenery and the 
natural and historic objects and the wildlife therein, and to 
provide for the enjoyment of same in such manner and by such 
means as will leave them unimpaired for the enjoyment of future 
generations.
    National Park Service professionals are entrusted with 
making decisions that uphold the agency mandate by determining 
the health and future of individual park units and the system 
as a whole, including the type of experience that will ensure 
the safety and protection of visitors; natural resources, 
including wildlife; and other park professionals. It was in 
keeping with this mandate that the National Park Service began 
prohibiting personal watercraft in individual parks in the late 
1990's and finalized a systemwide rule in 2000.
    The economic analysis conducted by the Trade Partnership is 
premised on the tenuous assumption that the primary reason for 
the declining sales has been the bans on personal watercraft 
use in most of the U.S. National Parks. To suggest that 
National Park bans are the primary factor is inconsistent with 
reasons that the industry has publicly cited as responsible for 
sales declines, fails to acknowledge negative press about 
safety and noise issues, and provides no concrete evidence to 
substantiate this claim. Rather, by a process of elimination, 
the study concludes that personal watercraft bans in the 
National Parks are the most plausible explanation. An article 
posted on the Personal Watercraft Industry Association Web site 
analyzing sales trends points to negative press from safety, 
noise and emissions issues but makes no mention of bans in 
National Park areas as being responsible for sales declines. In 
a 2004 press release announcing its decision to discontinue 
production of personal watercraft, Polaris cited the declining 
market, escalating costs and increasing competitive pressures 
as reasons for exiting the market. The company made no mention 
of bans in National Park units as a reason for discontinuing 
sales of personal watercraft.
    The Trade Partnership study also did not factor in the 
significant negative press generated by safety concerns of 
personal watercraft, including a report by the Center for 
Disease Control and Prevention in 1997 that found that there 
had been a fourfold increase in personal watercraft injuries 
between 1990 and 1995. The Trade Partnership study fails to 
consider these significant contributing factors to the negative 
press concerning personal watercraft use and provides no 
concrete evidence that the National Park Service bans are 
primarily responsible for the decline in personal watercraft 
sales in the last 10 years.
    By design, personal watercraft are fast, powerful machines, 
marketed for speed, adrenaline and thrills. Advertisements for 
personal watercraft promote them as high-performance muscle 
craft and include messages such as: See those blurred colors 
streaming by you? That is called scenery. Scenery is for saps. 
And: Next time you see ripples on the water, you'll know why 
it's trembling.
    There is nothing wrong with a thrill ride, but these 
thrills come at a high price to park resources and impair other 
visitors' ability to safely enjoy National Park areas, as 
evidenced by a number of studies and reports including several 
conducted by the National Park Service itself. Other State and 
Federal agencies, organizations and universities have also 
provided documentation of the distinct impacts caused by the 
use of jet-skis on natural resources and the safety and 
enjoyment of other recreational users. Personal watercraft have 
proven damaging to air and water quality, visitor safety and 
enjoyment, natural soundscapes and wildlife, and pose 
significant enforcement problems.
    It was for these reasons, in keeping with the agency 
mandate, that the National Park Service prohibited personal 
watercraft in the majority of the National Park system.
    At a hearing before the House Subcommittee on National 
Parks last May, a representative from Yamaha called the full 
National Environmental Policy Act [NEPA], analysis, ``a costly 
burdensome requirement.'' And while no irony is lost on the 
jet-ski industry's need for speed, it is not how hastily the 
National Park Service conducts these rulemakings that is vital 
to fulfilling this mandate, rather how thoroughly.
    In many of the studies conducted to date on personal 
watercraft use in the parks, we have found several 
deficiencies, including a failure to adequately monitor water 
quality at Lake Mead National Recreation Area, exclusion of 
data on impacts of dolphins at Assateague Island National 
Seashore, and an inadequate assessment of safety threats posed 
to park visitors by personal watercraft use.
    As these deficiencies demonstrate, the National Park 
Service has been hasty in the rulemaking process; details have 
been overlooked. Without a thorough analysis, the National Park 
Service runs the risk of allowing use that is damaging to park 
resources and hence in defiance of the clear agency mission. 
The National Park Service needs to take its time and ensure 
that rulemaking process is thorough and in keeping with the 
mandates of the Organic Act.
    Since its inception, the gold standard of the National Park 
Service has been to preserve and protect park resources. The 
agency is mandated to actively protect natural resources for 
visitors to enjoy for generations to come. The agency must 
conduct thorough studies and not be forced to view the NEPA 
process as a burdensome hoop to jump through, as the industry 
does. A careful review of uses, recreational or otherwise, that 
have the potential to impair park resources should not be 
considered a burden. Visitors expect park units to be safe and 
protected when they visit them, and this expectation should not 
be compromised.
    I thank you for your time this morning and for having me 
here.
    [The prepared statement of Mr. Schneebeck follows:]

    [GRAPHIC] [TIFF OMITTED] T7092.059
    
    [GRAPHIC] [TIFF OMITTED] T7092.060
    
    [GRAPHIC] [TIFF OMITTED] T7092.061
    
    [GRAPHIC] [TIFF OMITTED] T7092.062
    
    [GRAPHIC] [TIFF OMITTED] T7092.063
    
    [GRAPHIC] [TIFF OMITTED] T7092.064
    
    [GRAPHIC] [TIFF OMITTED] T7092.065
    
    [GRAPHIC] [TIFF OMITTED] T7092.066
    
    Mrs. Miller. Thank you very, very much.
    I want to thank all the witnesses. We have quite a bit of 
difference of opinion amongst all of you, and that is really 
what the purpose of the hearing is today.
    Ms. Taylor-Goodrich, I guess my first question would be for 
you. First of all, it is unusual to have other Members of 
Congress that are not even on a committee come, as Mr. Akin had 
done and wanted to make comment on this issue. It is unusual to 
have chairmen of other committees submit testimony for the 
record. And I don't know if it's completely unusual, but I 
guess my point is that this is an issue, obviously, that, as I 
say, is throughout the entire Congress.
    And there does appear to be an incredible amount of 
frustration about this rulemaking and the deadlines that have 
been passed. And in 2005, actually, both Chairman Pombo, who is 
the chairman of the Resources Committee, and myself, and also 
Chairman Manzullo, who is the chairman of the Small Business 
Committee, had sent a letter to Director Mainella; we were 
asking for dates when the PWC rules would be complete. And, you 
know, every time the deadlines are just failed; they are failed 
to be met, certainly. And it seems as though they just, the 
Park Service just keeps pushing this back for completion every 
time we ask about it. In my office, if somebody were just to 
blow us off, I would demand accountability.
    And I guess two questions. First of all, what is going on? 
Second, who actually is the person who is responsible for, 
ultimately responsible for the Park Service's failure to meet 
self-imposed deadlines, if you can comment?
    Ms. Taylor-Goodrich. Park regional and our Washington 
office staff are working with a contractor to move ahead as 
quickly as possible on the environmental analysis, certainly as 
part of the larger rulemaking process, and to complete the five 
remaining parks. We are working as quickly as we can with the 
staff that we have available to us. I don't have one individual 
to cite for you regarding a person to blame for this 
hesitation.
    Since 2000, in the settlement agreement, we've been working 
as hard as we can with the resources that we have spread across 
the parks that are involved as well as the Washington office to 
address not only the correspondence we are receiving from the 
industry and the organizations that are interested in PWC use, 
but we also have other kinds of regulatory affairs that we have 
to deal with on a day-to-day basis and that we have a limited 
staff to deal with. And so we are constantly having to juggle 
priorities.
    PWC use is the regulations program manager's highest 
priority, and that's under my purview, and he is working as 
fast as he possibly can with the assistance of the regions and 
the parks and their available staff to get the rulemaking 
process and all the dynamics from Federal Register to actually 
writing the rules, and then the EA process in particular is 
probably the most lengthy process, and we have a contractor 
working specifically in the parks to get that moving. But just 
the public involvement process in itself takes quite a bit of 
time with the length of open period for comment and the number 
of reviews that are needed, let alone just the science that we 
have to build into each one of our EAs. And having been an 
environmental compliance specialist at one point in my career, 
as well as a ranger, it is a lengthy process because you have a 
number of responsibilities under NEPA that you have to--that 
you are obligated to check as you are going through the 
process.
    So, with a limited staff, we are doing absolutely as much 
as we can. I mentioned some specific updates on the areas that 
are pending, the five parks that are left.
    Mrs. Miller. Let me, I think you just told me, you are too 
busy, I believe, is what you said. And I appreciate that. 
Everybody is busy. You ought to follow a couple Members of 
Congress around for a day; we have a lot of things going on as 
well. But when you have a specific deadline, people are wanting 
to hold you to that.
    Could you commit today to a specific deadline? I know you 
talked in your testimony about generalities.
    Ms. Taylor-Goodrich. I did not mean to imply that we are 
too busy. What I really mean is that we, with the limited 
staff, the resources we have, we are working as fast as we can. 
That doesn't mean we are too busy to make it the highest 
priority. Right now, it is our regulations program manager's 
high priority. And I can only look at where we are. I can't 
give you an exact date with an absolute; I can give you 
projected dates specific to each area and where they are in the 
rulemaking process, the final rulemaking being 2007 for the 
final park. And that's the Big Thicket Preserve, and that's the 
summer of 2007. But we are anticipating most everything out, at 
least the draft rules out by this summer.
    Mrs. Miller. One of the, I think it was Ms. Baughman who 
had mentioned, in 1998, when the first rule came out, at that 
time, it was said that there was little or no economic impact 
by having such a ban. I would just ask, I guess, to the 
committee generally, first of all, Ms. Taylor-Goodrich, would 
you believe that is a correct statement, that the ban--there is 
little or no economic impact on the National Park system by the 
ban--or on the PWC industry because of the ban? Do you have any 
comment on that? Perhaps you don't.
    Ms. Taylor-Goodrich. I don't have a comment. I can't go 
outside of what our economic studies have indicated.
    Mrs. Miller. Do you normally take into consideration 
economic impact when you are doing these kinds of rulemaking?
    Ms. Taylor-Goodrich. We do look at economic impact as part 
of the environmental assessment process. And it's primarily for 
localized communities.
    Mrs. Miller. Could I also ask--again, I've been a boater my 
entire life, all kinds of different--actually, I was a yacht 
broker by trade before I ever got involved in Congress. 
Actually, during the summer months, it was great because I 
could go demonstrate my product. But we primarily were in the 
sailboat industry, but we've had power boats in our family for 
years. We have a little 23-foot Pro Line right now. And I have 
watched the PWC industry evolve over the years. And, you know, 
there are bad actors in every industry, and you see people that 
are out there abusing all kinds of watercraft. And they don't 
understand the rules of the road. They don't have a clue what 
port from starboard means. They drink too much. They want to go 
too fast. Perhaps they haven't taken boating safety classes, 
etc.
    But, you know, you can get a--I don't want to use specific 
types of boats, but, I mean, a small--I mean, a Boston Whaler 
or small types of boats, you know, maybe an 18-foot with an 
awful lot of horsepower on it that has no draft to speak of 
that can go everywhere that a PWC does in any park or any body 
of water, and that boat operator can be--can have obnoxious 
behavior as well. Why are we just focusing on PWCs really? I 
mean, why not just look at every type of motorized vehicle? And 
it would seem to me, I mean, if you are in a park where you 
have a guy on an inner tube that's out of control, you have a 
park superintendent or whoever eject them. Why are we just 
focusing on PWCs to the extent that we are with a complete ban?
    Ms. Taylor-Goodrich. It might have the appearance of just, 
as far as an enforcement aspect, focusing on PWCs. Public 
safety over the safety of small craft like PWCs are just part 
of our overall visitor resource protection mission. The ban of 
PWCs, some of it has to do with public safety, but it's not the 
sole reason. But boating safety in general, watercraft use, 
boating, motorized boating safety is a paramount concern for 
the National Park Service, and our law enforcement rangers in 
parks that have this kind of use, PWC use or motorboat use or 
any other kinds of use by motor vehicles, anything that would 
have a concern for public safety, are cognizant of the kinds of 
characteristics to look for, certainly, when you are looking 
for unsafe behavior.
    So it's not limited to PWCs; PWCs in particular, because 
they are considered go-fast vessels for primarily speed and 
short turn-around and perhaps even stunts, as one person had 
mentioned, primarily. That is not the sole purpose. They are 
considered a higher safety concern, but it is just one part of 
the concern overall for PWCs.
    But we have a really good example on what we are trying to 
do to educate those folks in recreation areas. Lake Mead has a 
public safety or boating center now, and there are even parks 
like Lake Roosevelt National Recreational Area that will 
actually issue personal equipment, life jackets, for some of 
our users so they don't have to be sent back to a store to buy 
them. So we--in the areas that it is appropriate, we encourage 
it. We just want folks to make sure that they are doing it in a 
safe manner. It's not limited to PWCs, but we make boating 
safety, in mostly recreational areas because that's where 
you'll find the highest percentage, a high priority, and we 
just make sure that we have the enforcement staff available. 
But it is an education as well as an accountability issue.
    Mrs. Miller. You know, I am a big believer in education. I 
think education is absolutely key. And, again, just sort of my 
personal observation watching the industry evolve over the 
years, I mean, I think when the jet-skis or whatever first came 
out, they were a very inexpensive way to get involved in 
boating, and $1,000 or less, turn on a key and off you went. 
And I think the industry in many ways had a--you sort of had a 
reputation that came with that very quickly because there were 
high incidents of problems, talking to some of the different 
fellows involved in the marine division and everything.
    However, it's no longer an inexpensive way to get into 
boating. Some of these PWCs are quite expensive, and I think 
that has all changed.
    But perhaps I could ask for just a comment, generally, 
whoever wants to take a swing at this, what your thought is 
about how the industry has evolved, and perhaps maybe the best 
practices, worst practices, perhaps. Or let me say it this way: 
Some of the different State laws that require boating safety 
classes that have an age limit on operators and whether or not 
they have to have an adult on the PWC as well; perhaps some of 
the States that have the most restrictive types of laws and how 
that has impacted the industry, and some that would have very 
lenient or no laws in regard to this.
    Mr. Garcia, you----
    Mr. Garcia. Madam Chairwoman, yes. I would like to quickly 
comment on three points that have recently been brought up: the 
safety; the performance characteristics; and the impact, 
suggested impact on wildlife such as dolphins.
    On the safety issues, we must be aware that PWC accidents 
reported by the Coast Guard, clearly the authorities on boating 
safety, have shown a steady decline since 1999 to the point 
where 99 percent of the time that PWCs are used, are used 
safely and without injury, 99 percent of the time.
    The PWC industry is restless in pushing for greater boating 
safety. We have a model, a safety act that we continue to seek 
State adoption. Components of that act include mandatory 
education, a minimum age of 16 years old, wearage of the 
corrective safety gear, such as a personal floatation device, 
wearage of the stop--the emergency stop switch and other 
components. And at this time, 32 States have adopted either the 
act or components of the act, but we continue to pursue the 
balance of the States.
    So safety is a primary priority for our industry. But the 
results are showing positive trends. Again, a steady decrease 
since 1999. And today, as reported by the Coast Guard, 99 
percent of the time personal watercrafts are used safely. I 
would challenge anyone to find another sector of the marine 
industry that has such a record and such a commitment to the 
promotion of safety.
    The performance, that the watercraft, as has been 
suggested, that it is a high-performance watercraft. Just as 
with other industries, automotive industry, there are segments 
of the industry. And, sure, one segment is a performance, but 
it is a small segment. The majority of the market is the 
family, three-person, two or three-person family cruiser, if I 
could use that term. It's discriminating to suggest that 
personal watercrafts are a high-performance or a thrill craft 
particularly when you go simply down to where John's Market is, 
Biscayne. You'll have no problem to quickly identify boats that 
are maneuvering through Biscayne with two to four engines on 
the same boat, on one boat. So how could the personal 
watercraft be characterized as a thrill craft with one single 
engine when it is only one segment of the large market and the 
smallest segment?
    In addition, it was suggested that dolphins have been 
impacted by personal watercraft. I am not familiar with that 
study, but I can tell you what I am very familiar with is that 
a world leader in dolphin research uses personal watercraft in 
their research work. That is the Harbor Branch Oceanographic 
Institute in Florida. They use personal watercraft. They have 
been using personal watercraft since 1999 because they are 
safe, not only to the operator but to the dolphin; that they 
could approach dolphins without injuring them because there is 
no propeller; their operators are getting in and out of the 
water to aid the dolphins, and they also approach manatees for 
rescue; and for the quietness and the environmental 
friendliness to the water. They are not leaking fuel into the 
water.
    So I want to comment on our commitment to safety and the 
real results, the real performance of our safety record, and 
the mischaracterization of a thrill craft, and that wildlife is 
not harmed. As a matter of fact, leading authorities are using 
personal watercraft on the West Coast, the Scripps Institute of 
California, University of California also uses a personal 
watercraft to research sea horses. Sea horses. Thank you.
    Mrs. Miller. Thank you.
    Mr. Hamer, do you have any comment on that? Have you had a 
personal observation of the dolphins running, swimming away 
when they see the PWCs coming?
    Mr. Hamer. I've had no personal observation of that. But as 
far as the safety issue in Florida, we do have requirements in 
Florida that people under 18 years of age have to take a test 
and be licensed to operate personal watercraft. My children had 
to do that. When the law went into effect, they took the test 
and went down and got their little licenses with the pictures 
on them so they could continue to operate them. The problem 
was, we had to drive from where we live in south Dade, south 
Miami, all the way either up to the areas that are north of 
Fort Lauderdale, over an hour away, or to the Keys for them to 
enjoy that. Even though they took the course and they made sure 
that they followed all the rules of the road, for lack of a 
better word, we weren't allowed to enjoy the personal 
watercraft where we live. Even though we have a massively big 
park, where, as Mr. Garcia pointed out, you have cigarette 
boats with three and four motors burning 20 gallons an hour of 
gasoline per motor, going over 70 miles an hour in the same 
park. And, as opposed to a watercraft that, you know, you are 
going to go out, a three-seater family oriented watercraft and 
have fun and go out and with your friend and ride around and 
just enjoy the scenery and what's there. It just doesn't seem 
fair that you can ban something that has very little impact 
compared to these big cigarette boats, or in the case of 
Biscayne National Park, there is a fuel barge that goes and 
provides fuel to the Turkey Point Power Station that goes right 
through the park to provide that fuel. The Intercoastal 
Waterway goes right through the park, which is supposed to be 
used for people to navigate. Personal watercraft doesn't seem 
to be allowed to do that. It just doesn't seem fair that is 
what is going on in the area in South Dade.
    Mrs. Miller. In fairness, do you have a comment as well?
    Mr. Schneebeck. Yes, I think the--in terms of safety, we 
acknowledge that, both in terms in safety and emissions, that 
the industry has put efforts into improving safety both 
technologically and in education.
    I think it's important to remember we're talking about 
National Parks, and we're talking about some of the more 
special places, and they have a mandate to protect these places 
and the visitors who come to visit them. And so we still have a 
disproportionate--the Coast Guard statistics from 2004 still 
show that personal watercraft represent about 7 percent of 
boats on the water, and they are involved in about 24 percent 
of accidents on the water. So there is still a disproportionate 
safety issue there.
    When we first approached the Park Service with our 
petition, we gathered numerous studies that showed that jet-
skis are harmful to wildlife, that they are harmful to near-
shore areas, and that they still had the emissions issues. And 
I just want to point out that the emissions issues are still in 
play. There have been improvements, but the four-stroke 
machines that have been sold, you know, there are 160,000 new 
machines that have been sold in the last 2 years. There are 
1.48 million personal watercraft still out on the water, 
according to the industry. That is a very small percentage of 
these machines that are operating on this new technology. And 
we applaud the new technology; it is a good improvement. But we 
still have the problem of the emissions and the noise from 
older machines.
    Finally, I just want to address, you know, in terms of 
Biscayne, we acknowledge there are other problems in Biscayne 
National Park, but the Park Service shouldn't be expected to 
have to treat all of those problems. It should be able to treat 
one of those problems without having to treat all of them at 
once, and they certainly should be looking at other problems in 
other places that could be detrimental to park resources.
    Mrs. Miller. Thank you.
    Representative Lynch.
    Mr. Lynch. Thank you, Madam Chairwoman.
    I just want to say, just to kind of put all this in 
perspective. Right now, you can use these personal watercraft, 
jet-skis, if you will, on 99 percent of the waterways in the 
United States. So you have 99 percent of the waterways in the 
United States where you can use jet-skis. Actually, it's more 
than 99 percent, because about half--a little bit more than 
half of what the National Park Service has under its 
jurisdiction; they have about 2 percent of America's waterways 
under their jurisdiction; 98 percent of the waterways in the 
United States of America are outside of the National Park 
Service jurisdiction. And you can currently use jet-skis and 
personal watercraft in 99--roughly 99.3 percent of America's 
waterways. But this 0.7 percent--0.7 percent or roughly 
somewhere between 1.3 percent and 0.7 percent--of the waterways 
in the United States that are under the National Park Service 
jurisdiction, you can't use jet-skis. And yet I have heard 
today that the entire industry, the entire industry is going in 
the toilet because this 1 percent of the waterways is not 
available to jet-skis.
    Now, I have to ask myself--you know, I live in Boston, and 
folks keep the jet-skis in their garages, and a regular 
decision by my constituents and a lot of folks on Cape Cod say, 
OK, where am I going to use my jet-skis today? And they have 
about 1,000 opportunities. And they say, I am not going to the 
National Park because I can't use it there; I am going to go 
down to the beach; anywhere, lakes, beaches. And yet you're 
saying, because folks can't go to the National Park that the 
whole industry is basically going bankrupt; and that, based on 
Ms. Baughman--I need to see that study you did for all those 
jobs that are being lost because this 1 percent of waterways 
that's been preserved for conservation purposes, this 1 
percent--99 percent you can do. This 1 percent is responsible 
for the downfall of this industry. It's not the product 
liability suits. It's not the class actions. And there's a ton 
of those against these watercraft. But go back to Polaris. 
Their's wasn't this--their problem was they were getting sued 
in a whole bunch of States for product liability issues. And 
that's really what's killing this industry.
    So I don't buy it. I don't buy it. I don't buy it that this 
1 percent that's regulated is the be all and end all of your 
industry. I don't believe--you know, Bombardier, I know you've 
got a couple of manufacturing facilities in the United States, 
but I also know a lot of stuff's going on outside the country. 
That's fair. That's fair. A lot is going on in Japan as well.
    So I don't see every single job here being related to this 
1 percent of waterways that's being protected right now by this 
country and by this law. And I spend a lot of time in Florida. 
And I do agree, Lake Powell is one of the most beautiful spots 
in the country. Wonderful. And I aim to keep it that way to the 
best of my ability. But I just know when people are overstating 
the case; overstating the case in terms of what this 1 percent, 
1 percent of the waterways that remains preserved. You've got 
99 percent. Do what you want. Do what you want. We've preserved 
1 percent of the waterways here right now under the 
jurisdiction of the National Park Service that you can't do 
this because other folks want to use it for a different reason. 
They might want quiet. They might want to have a pristine 
environmental--a pristine environment there, and so we've 
carved out this 1 percent.
    So if you can't make your industry work with 99 percent of 
the waterways in this country, why the heck should I sit up 
here and believe that, with this 1 percent, first of all, we 
are going to solve the unemployment problem, because the number 
of jobs that have been connected to this industry today is just 
incredible? Talk about a stimulus package. All we've got to do 
is open up this 1 percent of National Parks, and we'll put the 
whole country back to work based on what I've heard here today. 
It's incredible. From folks under oath. And I am supposed to 
believe this. I've got to tell you, I find it very, very 
difficult to believe. I find it totally unsubstantiated by the 
facts here, that this 1 percent--opening up this 1 percent 
that's protected right now is going to turn this industry 
around and put everybody in this country back to work. I just 
don't believe it. I don't believe the billions and billions of 
dollars that are being laid on--this is extremely incredible 
that this small percentage of waterways could be responsible 
for so much devastation and so much unemployment and such 
downturn in--and such a huge impact in our economy given the 
fact that these are National Parks, and they are supposed to be 
undeveloped.
    So just--it's been really tough for me to sit here and bite 
my tongue during this testimony, but there it is. And I have a 
couple of markups, too, Madam Chair, and I think I have a vote, 
too. So I am going to have to----
    Mrs. Miller. We do. We do have a vote on. And if you are 
not looking for an answer to your statement, we can conclude 
the hearing.
    Mr. Lynch. No. That was a tirade. That was not a question. 
Thank you, Madam Chair.
    Mrs. Miller. And I appreciate his passion, which is why he 
is a great ranking member. We agree to disagree on various 
things, and that is what democracy is all about.
    I am sorry. We have a vote on right now, so we do have to 
run across.
    Mr. Garcia. May I make one very quick comment?
    Mrs. Miller. Very quick.
    Mr. Garcia. My testimony was the truth. It was the truth. 
And the reality is, irregardless of the percentage, it's bad 
government to maintain a ban when their own study shows no 
impact. Second, it is greater than 1 percent because of the 
publicity factor across the country.
    Mrs. Miller. OK. We appreciate that. And your testimony is 
part of the record. And, as I said, we do have a vote on. So I 
want to thank all the witnesses for being here this morning. It 
obviously is an issue of great debate. And I know the Park 
Service is well aware that we are all watching to make sure 
that the deadlines are going to be adhered to. And thank you 
all for coming. The meeting is adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Chris Cannon and additional 
information submitted for the hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T7092.067

[GRAPHIC] [TIFF OMITTED] T7092.068

[GRAPHIC] [TIFF OMITTED] T7092.069

[GRAPHIC] [TIFF OMITTED] T7092.070

[GRAPHIC] [TIFF OMITTED] T7092.071

[GRAPHIC] [TIFF OMITTED] T7092.072

[GRAPHIC] [TIFF OMITTED] T7092.073

                                 <all>

</pre></body></html>
